DOE/IG-0435



               AUDIT
              REPORT                             THE
                                    U.S. DEPARTMENT OF ENERGY'S
                                          AIRCRAFT ACTIVITIES




                                                JANUARY 1999


       U.S. DEPARTMENT OF ENERGY
      OFFICE OF INSPECTOR GENERAL
        OFFICE OF AUDIT SERVICES
                                          January 7, 1999

MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman
                       Inspector General

SUBJECT:               INFORMATION: Audit Report on "Review of the U.S. Department of
                       Energy's Aircraft Activities"

BACKGROUND

On October 19, 1998, you asked that the Office of Inspector General (OIG) undertake a review
of the Department of Energy’s aircraft activities. You also requested that I report back to you
within 90 days. We have gathered information concerning the number of aircraft, the level of
utilization, and the cost of the Department’s aircraft operations. We have also briefly summarized
four issues that, in our judgment, may require management attention.

Prior to your request, the OIG had initiated a separate audit of aircraft and air service
management programs at the Albuquerque Operations Office, which accounts for the largest
percentage of the Department’s total expenditures on aircraft activities. Based on this audit, we
concluded that Albuquerque could reduce the overall cost of its aircraft activities. We also found
that the Operations Office could discontinue air service between Albuquerque and Amarillo,
Texas, if it relied on currently available commercial air services. We issued the draft report to the
Albuquerque Operations Office on December 4, 1998. Although taking exception to some of the
tentative audit conclusions, Albuquerque agreed to take aggressive actions to reduce the cost of
aviation services and to cancel the shuttle service between Albuquerque and Amarillo.
Discussions are proceeding to resolve any substantive differences between this office and
Albuquerque.

RESULTS OF AUDIT

As of November 1998, the Department owned 30 operating aircraft, including 12 fixed wing
planes and 18 helicopters. The aircraft are assigned to the Albuquerque, Nevada, and Savannah
River Operations Offices, and the Bonneville and Western Area Power Administrations. Missions
include:

   •   responding to nuclear emergencies,
   •   transferring classified cargo,
   •   transporting personnel performing mission related functions,
   •   patrolling powerlines,
   •   monitoring airborne radiation and pollution, and
   •   performing security missions.
Since 1994, the number of flight hours, and associated costs, of Departmental aircraft has
declined. Between Fiscal Years 1994 and 1997, flight hours declined from 15,700 to 11,400 and
operating costs from $27.4 million to $19.9 million.

During our review, we identified issues indicating a need for increased Departmental management
oversight of aviation activities. For example, the independent review of the continuing need for
aircraft has only been performed on a limited basis. As a result, application of Office of
Management and Budget (OMB) guidance on documenting the continuing need for aircraft was
inconsistent among field locations. We also noted that operating costs at the Albuquerque
Operations Office were significantly higher than at other locations. In addition, Headquarters
does not validate mission need when acquiring aircraft. Finally, we found that information
reported to the General Services Administration (GSA) significantly understated the Department’s
use of aircraft rentals and charters.

To resolve these issues and ensure that they are coordinated on an agency-wide basis, the OIG
suggests that the Department assign responsibility and authority to a Headquarters entity for:

   • scheduling, managing, and coordinating periodic assessments of the continuing need for
     aircraft;
   • identifying aircraft operations that are uneconomic and implementing appropriate
     corrective actions;
   • validating the missions being used to justify aircraft acquisitions; and
   • ensuring that accurate charter, contract, and rental information is collected and provided
     to GSA, as required by current Federal government policy.

As noted above, questions concerning the continuing need for aircraft and validation of missions
used to justify aircraft acquisitions were of paramount concern. In this context, we noted that six
of the planes currently in the Department’s inventory are used for passenger transportation. This
includes five turbo prop and one jet aircraft. In currently proposed acquisitions, the Department
plans to procure two additional jets with international passenger transportation capability. As
described in Appendix B, the Department reported that several of these planes have unique,
contingency missions involving accidents or nuclear emergencies.

We did not, as part of this review, evaluate the nature of the contingency missions for these
aircraft. Nor did we analyze the cost/benefit relationship of retention of aircraft for these
purposes. However, in our judgment, the one-time and recurring costs to acquire and operate
these aircraft are of such significance that the Department’s senior decision-makers, who are in
the best position to validate the continuing mission need, should periodically make such analyses.
This should include: (1) assessing the practicality of using alternative sources for obtaining the
needed air transportation and (2) evaluating the appropriateness of using the aircraft for passenger
transportation purposes when such activities are found to be cost effective and mission related.
We concluded that OMB requirements call for such action. This subject is discussed on Pages 5
and 6 of the report.
We discussed the issues in this report with the Office of Environment, Safety and Health and the
affected field organizations. Please feel free to contact me should you desire to discuss any of the
issues further.

Attachment

cc: Acting Deputy Secretary
    Under Secretary
REVIEW OF THE DEPARTMENT OF ENERGY’S AIRCRAFT ACTIVITIES


TABLE OF CONTENTS


Departmental Aircraft Program

Department of Energy Aircraft ........................................................................................ 1
Aircraft Trends................................................................................................................ 2
Aircraft Acquisitions ....................................................................................................... 2
Safety Issues ................................................................................................................... 3
Prior Office of Inspector General Reports........................................................................ 3


Suggested Management Actions

Assess the Continued Need for Aircraft........................................................................... 5
Review Cost and Utilization Data.................................................................................... 5
Analyze New Aircraft Acquisitions.................................................................................. 6
Ensure the Accuracy of Charter Aircraft Data ................................................................. 6


Appendices

A. Department of Energy Aircraft Cost and Utilization Data .......................................... 8
B. Missions of Current (FY 1998) Department of Energy Aircraft .................................. 9
C. Scope and Methodology............................................................................................10
DEPARTMENTAL AIRCRAFT PROGRAM

Since the Manhattan Project, the Department and its predecessor organizations have owned and operated
aircraft. Originally, planes were used to transport materials and personnel between remote locations not
serviced by commercial flights. As the Department’s missions expanded, so did the agency's use of
aircraft. With the creation of the Department in 1977, for example, the agency assumed responsibility for
the power marketing administrations (PMAs). The two largest PMAs, Bonneville and Western Area,
made extensive use of sizeable aircraft fleets. Currently, the Department’s 30 operating aircraft transport
passengers performing mission-related functions and hazardous materials; conduct security operations,
research and development activities, and aerial measurements; respond to radiological emergencies; and
patrol powerlines and pipelines. Approximately 28 Federal and 114 contractor full-time equivalent
employees are directly involved in operating the Department's aviation program.

Department of Energy Aircraft

At the end of Fiscal Year 1997, the Department had 32 aircraft. These aircraft logged 11,379 flight hours
and were operated at a cost of $19.9 million. Table 1 provides detailed information relating to the
location, number, utilization, operating cost, and missions of the Department's aircraft for Fiscal Year
1997--the most recent year for which complete data is available.

                                                  TABLE 1
                                  FISCAL YEAR 1997 AIRCRAFT INFORMATION

                     NUMBER          TOTAL          TOTAL
                        OF           FLIGHT      OPERATING
LOCATION             AIRCRAFT        HOURS          COSTS                       MISSIONS1
Albuquerque              8               2727     $ 11,414,236 - transporting classified and hazardous cargo
Operations                                                     - responding to emergency situations
Office
Nevada                     92            1788        2,098,281 - conducting air sampling, photography,
Operations                                                       radiation measurements, transporting
Office                                                           radioactive materials
                                                               - supporting Nuclear Emergency Search
                                                                 Team (NEST)
Bonneville                 8             3605        1,982,335 - patrolling transmission lines and
Power Admin.                                                     transporting people, tools and materials
Western Area               5             2369        2,595,586 - patrolling transmission lines and
Power Admin.                                                     transporting people, tools and materials
Savannah River             2               890       1,772,326 - responding to security incidents
                                                               - gathering airborne intelligence
TOTALS                    323          11,379      $19,862,764

1
    As reported by the Department.
2
    Two helicopters and one fixed-wing King Air BE200 are based at Andrews Air Force Base.
3
  One of these aircraft was sold during Fiscal Year 1998. Another was a Western Area Power Administration helicopter
which was destroyed in a crash in April 1997. This figure does not include one aircraft owned by Battelle Memorial
Institute of which the Department is the primary user.


                                                            1
Aircraft Trends

As the Department's mission has shifted away from weapons production, its requirements for aircraft
have decreased. As a result, the number of aircraft, flight hours, and costs declined significantly over the
past several years. Between Fiscal Years 1994 and 1997, the Department's aircraft inventory decreased
11 percent while total flight hours and total aviation operating costs each decreased 27 percent. Table 2
provides a summary of aircraft data for this period.

                                           TABLE 2
                            AIRCRAFT, COST, AND UTILIZATION DATA

                                                          FY94            FY97
                        Number of Aircraft                      36                32
                        Number of Flight Hours             15,700            11,400
                        Operating Cost               $27.4 million     $19.9 million

The site most affected by the decline in aircraft operations is the Albuquerque Operations Office, which
accounted for over 57 percent of the $7.5 million decrease in the Department's aviation program during
the period. Two aircraft missions at Albuquerque have been reduced or eliminated. For example, daily
passenger flights between six locations were eliminated and nuclear material deliveries across the
Department’s complex were reduced from three times a week to delivery on demand. The changes at
Albuquerque resulted in an aircraft inventory reduction of one aircraft, a 56 percent decrease in flight
hours, and a reduction in operating costs of $4.3 million over the 4-year period. This information
suggests that Albuquerque has reduced its aircraft costs. But as we noted during our concurrent review,
Albuquerque can do more to reduce costs. Appendix A provides a detailed summary of Departmental
aircraft by location, cost, and utilization data for Fiscal Years 1994 through 1997.

Aircraft Acquisitions

The Department has not acquired any aircraft since December 1994. The Albuquerque and Nevada
Operations Offices and Bonneville and Western Area Power Administrations are currently planning to sell
11 aircraft and replace them with 6 newer models. Table 3 provides detailed information relating to
proposed aircraft acquisitions.




                                                      2
                                                   TABLE 3
                                       PROPOSED AIRCRAFT ACQUISITIONS

ORGANIZATION             AIRCRAFT TO BE            AIRCRAFT            MISSION JUSTIFYING THE             VALUE OF
                            ACQUIRED              TO BE SOLD           AIRCRAFT ACQUISITION                 NEW
                                                                                                          AIRCRAFT
Albuquerque             1-Gulfstream            1-DHC-7 fixed          Emergency response.                    $12 M
                                                wing4
                                                1-DC-9 fixed wing
Nevada                  1-Gulfstream            2-King Air BE200       Emergency response.                  $21.7 M
                                                fixed wing
                        2-medium altitude       2-BO-105-              Radiation environmental
                        and range helicopters   helicopter             surveys.
Western Area            1-helicopter            2-Bell Jet Ranger      Powerline inspection and              $1.3 M
Power                                           helicopters            repair.
                                                1-helicopter
                                                (destroyed in crash)
Bonneville Power        1-helicopter            2-Jet Rangers          Passenger transport and airlift.     $900,000

The six aircraft to be purchased will cost a total of approximately $35.9 million. The Department plans
to apply the proceeds from the sale of 11 existing aircraft, estimated at about $11.9 million. The
remaining funds of about $24 million will need to be provided by Defense Programs and the Western
Area Power Administration. Officials at the Bonneville Power Administration expect the sale of the two
existing helicopters to pay for Bonneville’s new helicopter.

Safety Issues

Safety issues have been a serious concern to the Department. From 1990 to 1992, the Department
experienced 12 aviation accidents that resulted in 17 fatalities, 2 serious injuries, and the destruction of 7
aircraft. In 1994, the Department responded to safety concerns by establishing a Headquarters
organization--EH-53--within the Office of Environment, Safety and Health, which is responsible for
aviation safety. Since that time, there has only been one aviation accident. A Western Area Power
Administration helicopter was destroyed, but there was no serious injury or loss of life.

Prior Office of Inspector General Reports

Since 1987, the Office of Inspector General has issued four audit reports on various aspects of the
Department’s aircraft activities. Each of the prior reports, summarized here briefly, addressed needed
improvements in the management or cost-effective utilization of Department aircraft.

• December 1987             Audit of the Department’s           The Department did not have a
                            Aircraft Management,                comprehensive and effective system to
                            DOE/IG-0248                         manage its aircraft. Requirements of
                                                                OMB Circular A-126 had not been fully
                                                                implemented.

4
    Aircraft sold November 1997.
                                                          3
• July 1991            Management of the Ross           Ross Aviation, Inc. was acquiring and
                       Aviation, Inc. Contract          maintaining excessive spare parts in
                       Aircraft Major Spare Parts       inventory.
                       Inventory, WR-B-91-6

• September 1994       Audit of Aircraft Management     The Department could have saved $2.2
                       at the Albuquerque               million by eliminating a costly air service
                       Operations Office,               between Los Alamos and Albuquerque.
                       CR-B-94-05                       (This service was eventually cancelled
                                                        despite Albuquerque’s non-concurrence
                                                        with the Office of Inspector General
                                                        audit finding.) Also, purchasing rather
                                                        than leasing four aircraft could have
                                                        saved $8.6 million. Finally, leasing a
                                                        seldom-used DC-9 led to $1 million in
                                                        unnecessary costs.
• September 1994       Audit of Aircraft Management     Bonneville could have met mission
                       at the Bonneville Power          needs with one less helicopter and one
                       Administration, CR-B-94-06       less plane. Annual savings of $735,000
                                                        in operating costs were available. In
                                                        addition, the excess aircraft could have
                                                        been sold for $1.5 million. Bonneville
                                                        could also have saved $839,000 by
                                                        canceling the purchase of a replacement
                                                        helicopter. (Bonneville officials initially
                                                        agreed to review its operations in
                                                        accordance with the OIG's
                                                        recommendations. However, Bonneville
                                                        officials stated that maintenance
                                                        requirements and revised mission needs
                                                        changed their decision to adopt the
                                                        OIG's recommendations.)


SUGGESTED MANAGEMENT ACTIONS

We identified issues during our review indicating a need for more centralized management of the
Department’s aviation activities. For example, we found that an independent review of the continuing
need for aircraft has only been performed on a limited basis. We also noted that operating costs at the
Albuquerque Operations Office were significantly higher than at other locations and that no Headquarters
organization had the responsibility to monitor such costs. In addition, Headquarters does not validate
mission need when approving aircraft acquisition. Finally, we found that information reported to the
General Services Administration (GSA) significantly understated the Department’s use of aircraft rentals
and charters.

Our conclusions are consistent with an April 1995 and a November 1998 study by the Office of
Environment, Safety and Health. The 1995 study recommended establishing a Headquarters program
                                                    4
office with responsibility for overall management, budget, budget allocation, contract management,
property management, and operations of aviation services within the Department. The objective of such
an office would have been to centrally manage Department aircraft, reduce costs, and more fully utilize
the Department's aircraft. The 1998 study concluded that without more program office involvement
there is no Headquarters line management to address DOE aviation issues or to effect program
improvements.

As currently configured, EH-53 is charged with aviation safety and has a limited role in the review of
aircraft justifications. However, neither EH-53 nor any other Headquarters organization has overall
aircraft activity management authority.

Assess the Continued Need for Aircraft

Office of Management and Budget Circular A-126 requires an agency to periodically review its aircraft
operations and justify the continuing need for aircraft. This requirement is not consistently met by the
Department. There is no schedule of reviews or a common understanding of how often such reviews
should occur.

The need to periodically review and independently justify the continuing need for aircraft is underscored
in a separate report being issued by the Office of Inspector General. The Albuquerque Operations Office
used a plane no longer having a valid mission (i.e. transporting classified materials and cargo) to transport
passengers between Albuquerque, New Mexico, and Amarillo, Texas. A commercial air carrier provided
daily service between the same two cities at a significantly lower cost ($185 versus $1474 per round trip).
Albuquerque has indicated that it will cancel this shuttle service but intends to keep this aircraft for
mission related needs.

Suggestion to enhance aircraft operations: The Department should assign responsibility and authority
to a Headquarters entity for scheduling, managing, and coordinating periodic assessments of the
continuing need for aircraft.

Review Cost and Utilization Data

As noted, the Office of Inspector General has reported on a number of opportunities to decrease aircraft
costs. Costly practices were identified at both the Albuquerque Operations Office and the Bonneville
Power Administration. There are indications that aircraft costs are not adequately monitored or
controlled. Our concurrent review at Albuquerque, for example, indicated that opportunities existed for
the Department to save as much as $5.7 million over 2 years in aircraft operating costs at that location
alone.

There appears to be a need for an independent Headquarters organization to identify costly aircraft
operations. This organization should have the authority to take action to reduce the cost of uneconomic
aircraft activities. To illustrate the nature of our concern, we compared the costs to operate a
Beechcraft-200 at various Department sites. Our analysis showed a significant variance in operating
costs per flight hour. As shown in Table 4, costs at Albuquerque appear to be high in comparison to
other sites.


                                                      5
                                       TABLE 4
           FISCAL YEAR 1997 BE-200 OPERATIONS COST AND UTILIZATION DATA

                                                                                Cost Per
             Location        Aircraft ID#        Cost       Flight Hours       Flight Hour
          Albuquerque         N7232R           $807,357          321              $2,515
          Nevada              N6451D           153,360           143               1,072
          Nevada              N185XP           144,901           137               1,058
          Bonneville           N63791          417,859           459                 910
          Bonneville          N2748X           393,725           521                 756

Suggestion to enhance aircraft operations: The Department should assign responsibility and authority
to a Headquarters entity for identifying costly aircraft operations, analyzing the comparative costs of
these operations relative to industry standards, and ensuring actions are implemented throughout the
complex to make aircraft activities as cost effective as possible.

Analyze New Aircraft Acquisitions

The Department’s planned acquisitions (illustrated in Table 3) were in various stages of the approval
process. Each requesting office is required by Office of Management and Budget Circular A-76 to
perform an in-house versus a contracted out analysis. Also, the Congress must authorize all aircraft
acquisitions.

An apparent weakness in the acquisition approval process is that no independent entity within the
Department validates the mission proposed by the requesting operations office. That responsibility lies
with the program office, which funds the requesting aviation site activities. We noted that the
Albuquerque and Nevada Operations Offices are each currently planning to acquire a similar mid-size jet
for what appeared to be the same or similar missions. Each organization justified its planned purchase in
terms of an emergency response mission and the ability to transport an emergency response team
anywhere in the continental United States within 6 to 8 hours. Each request was analyzed separately.
Albuquerque's acquisition has been approved and approval for Nevada's acquisition is pending. To
prevent possible overlap of services, a Headquarters office needs to have sufficient responsibility and
authority to evaluate aircraft acquisitions from a Departmentwide perspective.

Suggestion to enhance aircraft operations: The Department should assign responsibility and authority
to a Headquarters entity for validating the missions being used to justify aircraft acquisitions.

Ensure the Accuracy of Charter Aircraft Data

The Department is required to report all aircraft rentals and charters to GSA. In Fiscal Years 1996 and
1997, the Department reported 966 and 280 charter flight hours costing $1,010,751 and $127,684,
respectively. Based on our analysis, charter information reported to GSA was significantly understated.
For example, in Fiscal Years 1996 and 1997 Western Area Power Administration and the Oak Ridge
Operations Office actual charter costs totaled about $206,000 and $133,000, respectively. However, the
                                                    6
Department reported to GSA total charter costs of about $38,000 and $36,000 for these fiscal years. As
a result, at just these two sites, the Department, for Fiscal Years 1996 and 1997, understated charter
costs by approximately $168,000 and $97,000, respectively.

We were unable to assess the overall cost effectiveness or appropriateness of the Department’s use of
chartered aircraft. However, without accurate information, the Department has no basis for ensuring that
its chartered aircraft activities are cost effective.

Suggestion to enhance aircraft operation: The Department should assign responsibility and authority
to a Headquarters entity for ensuring that accurate charter, contract, and rental information is collected
and provided to GSA.




                                              _________/S/___________
                                              Office of Inspector General




                                                     7
                                                                                                           Appendix A


DOE AIRCRAFT COST
AND UTILIZATION
DATA

DOE FIELD OFFICE/        FY94                   FY95                    FY96                    FY97
AIRCRAFT MODEL           HOURS     COST          HOURS    COST           HOURS    COST           HOURS     COST
ALBUQUERQUE:
   DC-9                     867    $3,397,211       544    $2,662,690       749    $2,728,034        525    $2,621,972
   DC-9                     688     2,815,134       503     2,376,990       856     2,739,970        498     2,729,407
   DC-9                     711     3,117,837       684     3,172,112       492     2,480,461        311     2,270,912
   Lear-35                  433       683,690       421       791,534       379       940,789        319       887,268
   King Air BE-200          302       690,967       361       693,330       285     1,522,182        321       807,357
   deHavilland DHC-6       1232     1,739,132       330       882,251       223       532,285        130       306,141
   deHavilland DHC-6        409       703,766       407       638,116       344     1,073,819        351       723,720
   deHavilland DHC-6        972     1,427,898      1444     1,793,385
   deHavilland DHC-7        533     1,136,651       478     1,133,084       449     1,316,607        272     1,067,459
      Totals               6147   $15,712,286      5172   $14,143,492      3777   $13,334,147       2727   $11,414,236
NEVADA:
   King Air BE-200 (A)        6     $103,648        115     $481,126        135     $259,796         143     $153,360
   King Air BE-200           10      107,659         81       515,444       161      298,860         137      144,901
   Cessna Citation II       207      534,393        295     1,336,869       308      584,389         291      384,479
   Convair 580/600          181      622,716                   87,074
   BO-105                   192      394,306        213       574,463       175      291,423         217      213,173
   BO-105                   322      564,594        191       418,964       212      348,244          13       17,610
   BO-105 (A)               187      404,077        200       465,074       150      261,514         181      176,472
   BO-105                   360      498,942        138       246,112       266      463,631         254      365,923
   BO-105                   280      860,436                    1,077
   Bell-412                                                                  28       64,643         326       436,404
   Bell-412 (A)                                                                                      226       205,959
      Totals               1745    $4,090,771      1233    $4,126,203      1435    $2,572,500       1788    $2,098,281
BONNEVILLE:
   King Air BE-200          377     $354,600        442     $476,967        506     $418,201         459     $417,859
   King Air BE-200          403      321,525        595       375,240       559      451,336         521      393,725
   Bell-206                 421       79,710         81        37,427
   Bell-206                 588      180,601        450       188,984       381       151,522        333       151,693
   Bell-206                 535      199,575        650       277,573       509       168,698        435       193,806
   Bell-206                 482      122,287        546       151,078       465       163,592        515       226,853
   Bell-206                 509      137,456        571       143,063       450       154,207        453       197,739
   Bell-206                 475      186,052        471       189,288       451       249,256        395       207,543
   Bell-206                                         408       116,231       487       178,735        494       193,117
      Totals               3790    $1,581,806      4214    $1,955,851      3808    $1,935,547       3605    $1,982,335
WESTERN:
   Bell-206 L-1             385     $130,097        402      $54,276        385     $174,422         190     $397,904
   Bell-206 B-III           421      123,235        461      132,249        400       177,681        740      540,936
   Bell-206 L-I             489      502,689        604      188,746        709       231,457        648      737,498
   Bell-206                 400      424,563        616      226,764        737       254,192        607      665,874
   Bell-206 B-III           320      129,749        317      160,839        378       171,968        184      253,374
   Bell-412                                                                  41        46,600
      Totals               2015    $1,310,333      2400     $762,874       2650    $1,056,320       2369    $2,595,586
SAVANNAH RIVER:
   BK-117                   449     $873,843        376     $874,881        393     $749,727         543    $1,082,891
   BK-117                   342       665,963       270       628,373       378       720,329        347       689,435
      Totals                791    $1,539,806       646    $1,503,254       771    $1,470,056        890    $1,772,326
IDAHO:
   Bell-412                 487     $911,785        568     870,453         122     $513,010
   Bell-412                 733       882,570       288       689,209       109       503,431
      Totals               1220    $1,794,355       856    $1,559,662       231    $1,016,441
OAKLAND:
   F-27                            $1,384,000
      Totals                       $1,384,000

TOTALS                    15708   $27,413,357     14521   $24,051,336     12672   $21,385,011      11379   $19,862,764



                                                              8
                                                                                                 Appendix B
MISSIONS OF CURRENT
(FY98) DOE AIRCRAFT

DOE FIELD OFFICE/
                                                                            5
AIRCRAFT MODEL                                                    MISSION
ALBUQUERQUE:                     - Carry classified and hazardous DOE cargo
 Fixed Wing:                     - Transport time critical, classified and/or hazardous
   3 DC-9s                         materials to various DOD Military First Destinations
                                 - Used in emergency situations
                                     (e.g. NEST, Accident Response Group, etc.)
     Lear-35                     - Transport hazardous and/or classified materials that are time
                                    sensitive to ongoing R&D programs
                                 - Used in emergency situations (e.g. Accident Response Group)
     King Air BE-200             - Transport hazardous and/or classified materials that are time
                                    sensitive to ongoing R&D programs
                                 - Used in emergency situations (e.g. Accident Response Group)
  2 deHavilland DHC-6s           - R&D for Sandia and Lawrence Livermore
NEVADA:                          - Supports the Department and civil nuclear reactor facilities with
 Fixed Wing:                       air sampling, radiation measurements & radiocative materials
  2 King Air BE-200s               transportation
                                - Used in emergency situations (e.g. NEST)
     Cessna Citation II          - Photography, multispectral and radiation surveys
                                 - Used in nuclear emergency response situations
    Helicopters:                 - Radiation measurements, multispectral and thermal scanner
    4 BO-105s                      surveys, photo and video oblique flights, and providing support for
                                   site security mission
     2 Bell-412s                 - Radiation measurements, multispectral and thermal scanner
                                   surveys, photo and video oblique flights, and providing support for
                                   site security mission
BONNEVILLE:                      - Transportation of passengers, parts and equipment
 Fixed Wing:
  2 King Air BE-200s
 Helicopters:                    - Transmission line patrols using low level photography,
  6 Bell-206s                      thermovision or heat emission
                                 - Used to transport people, tools and materials in emergency
                                   situations
WESTERN:                         - Transmission line patrols using low level photography,
 Helicopters:                      thermovision or heat emission
 4 Bell-206s                     - Used to transport people, tools and materials in emergency
                                   situations
SAVANNAH RIVER:                  - Respond to security incidents and provide rapid transportation for
 Helicopters:                      the Special Response Team
  2 BK-117s                      - Providing airborne intelligence gathering/relay station, airborne
                                   firing platform, rappel vehicle, escort/response vehicle, routine
                                   patrol of the general site and assistance to law enforcement


5
    As reported by the Department.
                                                            9
                                                                                                 Appendix C


                                     SCOPE AND METHODOLOGY


We reviewed Federal Property Management Regulations, Department of Energy Directives, and internal
Departmental procedures. The scope of our effort did not include a verification of data (including
computer-processed data) or an in-depth evaluation of the justification or utilization of the aircraft. The
information provided was obtained at DOE Headquarters, primarily from reports prepared by field
activities. We also held discussions with representatives of the Office of Field Support, the Albuquerque
and Oak Ridge Operations Offices, the Bonneville and Western Area Power Administrations, and the
Office of Management and Budget.

This audit was conducted in accordance with generally accepted auditing standards for performance
audits, which included tests of internal controls and compliance with laws and regulations to the extent
necessary to satisfy our audit objectives. Audit work was performed at Department of Energy
Headquarters during October and November 1998. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of our audit.




                                                      10
                                                                                   IG Report No. DOE/IG-0435

                                      CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and,
therefore ask that you consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of
   the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in
   this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name ___________________________             Date_____________________________

Telephone _______________________            Organization_______________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                 Office of Inspector General (IG-1)
                                 Department of Energy
                                 Washington, DC 20585

                                 ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


    Department of Energy Human Resources and Administration Home Page
                          http://www.hr.doe.gov/ig


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.


                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831
